                                                                        /.



  ""'CE


                    DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                     Office of Inspector General

.("-"'''.0	                                                                                     Washington , D. C.   20201

                                                            OCT   1 1        2005


              TO:	          Betty James Duke

                            Administrator

                            Health Resources and Services Administration


                            Elias Zerhoumi , M.
                            Director
                            National Institutes of Health

                            Charles Grim , D.       , M.

                            Director

                            Indian Health Service



              FROM:          Daniel R. Levinson 


                             Inspector General

              SUBJECT:      HHS Agencies ' Compliance With the National Practitioner Data Bank
                            Malpractice Reporting Policy, OEI- 12- 04- 0031O


              Attached for your review is our final report examining Department of Health and Human
              Services (HHS) agencies ' compliance with the medical malpractice reporting
              requirements of the National Practitioner Data Bank (NDB). The NPDB , which is
              managed by the Health Resources and Services Administration (HRSA), receives and
              maintains records of medical malpractice payments and of adverse actions taken by
              hospitals , other health care entities , licensure boards , and professional societies against
              licensed health care practitioners. The NPDB makes these reports available to hospitals
              other health care entities , and licensure boards to facilitate their background checks and
              credentialing.

              According to an October 15 , 1990 , HHS policy directive , all settled or adjudicated HHS
              medical malpractice cases must be reported to the NPDB. This policy applies to all cases
              regardless of whether the standard of care has been met. The only exception is for those
              cases in which the adverse event was caused by system error.

              We reviewed lists that HHS' s Program Support Center (PSC) maintains of all HHS
              medical malpractice cases that have been settled or adjudicated. We focused on the
              period June 1997 through September 2004. We found that , as of October 2004 , HHS
              agencies failed to report as many as 474 medical malpractice cases to the NPDB that
              should have been reported. Individual agency underreporting was as follows: Indian
              Health Service (IHS), 290 cases; HRSA , 179 cases; and National Institutes of Health
              (NIH), 5 cases.
This departmentwide underreporting was caused by a number of factors including:
(1) lost medical malpractice files; (2) incomplete information in medical malpractice
fies; (3) a 1998 decision by the HHS peer review entity, the Medical Claims Review
Panel , to not identify practitioners who met the standard of care (a decision that was
inconsistent with longstanding HHS policy); and (4) the failure to replace a key PSC
claims official or to reassign his NPDB reporting duties.

Failure to report medical malpractice cases to the NPDB has the effect of depriving
health care organizations , such as hospitals and State licensure boards , of potentially
useful information for their credentialing and regulatory activities , respectively.

We recommend that IHS , HRSA , and NIH each take steps to: (1) implement a corrective
action process that would address the uneported cases , (2) improve internal controls
involving case fies management , and (3) assign staff to assume responsibility for
addressing practitioner questions/complaints and data entry of reports to the NPDB.

In reply to the draft report , we received a response from the HRSA Administrator , who
responded on behalf of the Secretary. This response , which is attached at Appendix A to
this report , indicated that the Department is working to develop a final action plan that
wil include policy decisions relating to future reporting, including ensuring agency
compliance. The response also included agency techncal comments from HRSA , NIH
and IHS , which we have addressed as appropriate , in the attached report.

Since April 22 , 2005 , in response to the OIG review, IHS has reported 99 providers.
However , contrary to current HHS policy, IHS is not reporting cases in which the
standard of care was met.

Prior to the April 2005 IHS reporting, the last time HHS agency cases were entered into
the NPDB was in July 2003 (two HRSA cases). NPDB staff have advised OIG that , as of
June 30 , 2005 , neither HRSA nor NIH have reported any cases.


Please send us your final management decision , including any action plan , as appropriate
within 60 days. If you have any questions or comments about this report, please do not
hesitate to call me or one of your staff may contact Elise Stein , Director, Public Health
and Human Services Branch , at (202) 619- 2686 or through e-mail
 Elise. Stein oig. hhs. gov ). To facilitate identification , please refer to report number
OEI- 12- 04- 00310 in all correspondence.


cc:
Paula Stannard
Acting General Counsel
Department of Health and Human Services

Ann Agnew
Executive Secretary to the Department of Health and Human Services
       HHS AGENCIES’ COMPLIANCE WITH THE NATIONAL 

      PRACTITIONER DATA BANK MALPRACTICE REPORTING 

                   POLICY, OEI-12-04-00310 





BACKGROUND

National Practitioner Data Bank

The Health Care Quality Improvement Act of 1986 (the Act), as amended,1 created the
National Practitioner Data Bank (NPDB). Since it became operational in September
1990, the NPDB has received and maintained records of medical malpractice payments
and of adverse actions taken by hospitals, other health care entities, licensure boards, and
professional societies against licensed health care practitioners. The NPDB makes these
reports available to hospitals, other health care entities, and licensure boards to facilitate
their background checks and credentialing.

At the end of September 2004, the NPDB contained 358,590 reports on individuals, of
which 263,742 were medical malpractice payment reports. During the first 9 months of
2004, the NPDB received 2,652,153 requests for information from hospitals, other health
care entities, and licensure boards. Of those requests, 371,565 matched information
contained in the NPDB, for a match rate of 14 percent. The NPDB also received
37,879 self-queries from practitioners. Of these self-query requests, 2,300 matched
reports in the NPDB, for a self-query match rate of 11 percent. A HRSA-funded survey
of NPDB users in 2000 by the University of Illinois and Northwestern University found
that 9 percent of the time an NPDB report caused the hospital, other health care entity, or
licensure board to change a privileging, membership, or licensing decision. Based on the
survey results, HRSA has estimated that, for a 1-year period, 40,100 licensure,
credentialing, or membership decisions were affected by new information provided in
NPDB responses.

Section 421 of the Act2 requires that private insurers and self-insured health care entities
report medical malpractice settlements or court judgments to the NPDB. However, the
statute does not explicitly require HHS or other Federal departments to report medical
malpractice settlements or court judgments. Instead, section 4323 requires that HHS enter
into Memorandums of Agreement with the Department of Defense (DOD) and
Department of Veterans Affairs (VA) regarding their reporting policies. These
agreements, dated November 1990 and September 1997, respectively, outline DOD and

1
  Title IV of P.L. 99-660, 100 Stat. 3784 (codified at 42 U.S.C. §§ 11101-11152). 

2
  42 U.S.C. § 11131. 

3
  42 U.S.C. § 11152. 



OEI-12-04-00310 HHS Agencies’ Compliance With the National Practitioner Data Bank Malpractice Reporting Policy
VA reporting practices. In May 2004 DOD issued Instruction 6025.13, which updated
and modified its reporting procedures. VA’s updated reporting procedures are found at 38
CFR Part 46.

HHS set forth its own policy on agency medical malpractice reporting in an October 15,
1990, directive from the Assistant Secretary for Health to Public Health Service (PHS)
agency heads. This policy statement is entitled “Policies for PHS Reporting and Querying
the National Practitioner Data Bank.” The policy memorandum states that reports are to
be made whenever payment is made as a result of a claim or suit filed against the U.S.
Government alleging substandard practice by a physician, dentist, or other health care
practitioner providing services under the auspices of PHS or one of its programs. The
policy provides that if a payment results from a claim in which it was determined that the
standard of care was met, the payment “. . . shall be reported under the name of the
physician(s), dentist(s), or other licensed health care practitioner(s) found through the
procedures to be primarily responsible for the episode . . . .” The policy also states that
“the finding that the standard was met will be clearly indicated under any names so
reported.” An exception to this reporting requirement is for payments for claims
determined to be the result of a system breakdown, rather than the fault of the provider.

The October 15, 1990, directive also requires that HHS, at the time a report is made to the
NPDB, “. . . send a copy to the State Board of Medical or Dental Examiners in the State in
which the claim arose and to the State(s) of known licensure of the responsible
practitioner within 30 days from the date . . . payment was made . . . .” This HHS policy
reflects a similar requirement set forth in section 424 of the Act,4 which mandates private-
sector medical malpractice reporting to State licensing boards at the time such reports are
made to the NPDB.

In October 1995, PHS was reorganized. The November 9, 1995, Federal Register Notice
(60 FR 56605) announced the elimination of the Office of the Assistant Secretary of
Health and the designation of PHS agencies, which had been organizationally part of the
Office of the Assistant Secretary of Health, as Operating Divisions reporting directly to
the Secretary. Although the Office of the Assistant Secretary of Health no longer existed
as an organizational entity, the PHS policy on medical malpractice reporting to the NPDB
remained in effect. The Federal Register announcement noted as follows: “. . . all
statements of policy and interpretations with respect to the Office of the Secretary, and the
Public Health Service heretofore issued and in effect prior to the date of the reorganization
are continued in full force and effect . . . .”




4
    42 U.S.C. § 11134.



OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                2
The Federal Tort Claims Act and the Processing of Medical Malpractice Claims
Within HHS

The Federal Tort Claims Act (FTCA)5 is a limited waiver of Federal sovereign immunity
under which, with certain exceptions, the United States may be liable for the negligent
conduct of its employees acting within the scope of their employment to the same extent
a private party would be liable under the governing State law. Claims under the FTCA
may include medical malpractice claims. Under the FTCA, claimants must first present
an administrative claim for agency consideration and possible administrative settlement.
If the agency denies the claim or more than 6 months elapse after presentation without
agency disposition, the claimant may deem the claim denied and file suit against the
United States in Federal district court.

The Program Support Center’s (PSC) Claims Office is responsible for the administrative
processing of all Federal tort claims involving medical malpractice against practitioners
employed by HRSA, IHS, and NIH.6 PSC’s Claims Office staff collect medical records
and other information related to the plaintiff’s claim and then forward the file to peer
reviewers at the agency where the practitioner works. Agency peer review staff, or a
medical review contractor working for the agency, evaluate the merits of the claim and
make an initial determination as to whether the standard of care was met or not met. The
case file then goes to the Office of the General Counsel (OGC) for a determination of
whether to deny the claim or settle. Once a claim has been paid pursuant to a settlement
or court judgment, OGC sends the cases to the HHS Medical Claims Review Panel, Office
of the Secretary. The Medical Claims Review Panel is a peer review group that includes
medical staff from the Health Resources and Services Administration (HRSA), Indian
Health Service (IHS), National Institutes of Health (NIH), and other HHS agencies. The
Medical Claims Review Panel is responsible for: (1) making a final determination as to
whether the standard of care was met or not met, and (2) identifying the clinician(s) who
provided the treatment giving rise to the claim. The named practitioner(s) will then be
reported to the NPDB.7

Once the Medical Claims Review Panel completes its review, the case is sent back to PSC
for reporting to the NPDB. All medical malpractice reports to the NPDB must contain the

5
    P. L. 109-41
6
  The PSC Claims Office staff handling this responsibility were transferred to OGC in October 2004, after
the period covered by this study. For purposes of describing the step-by-step process of the handling of
medical malpractice cases, we are using the organizational framework that existed at the time of the study.
7
  Prior to 2004, almost all claims were reviewed by the Medical Claims Review Panel prior to settlement or
litigation to provide additional peer review input to OGC attorneys handling the claims. Starting in 2004,
the reviews have been done after the claim was settled or adjudicated. The change was made to expedite the
processing of cases within HHS.




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                3
name and signature of an agency official who certifies that the report is accurate. In
addition, all reports to the NPDB must contain the name of the reporting entity and the
name of a contact person a practitioner named in a report could call to discuss the report.
All practitioners who are reported to the NPDB automatically receive a copy of the report.
At the time PSC submits a report to the NPDB, a copy of the report is also forwarded to
the appropriate State licensure board.

According to PHS policy, once a case is settled or adjudicated, a report is supposed to be
made to the NPDB within 30 days.

METHODOLOGY

Our work took place from November 2003 through March 2005.

We reviewed lists of all HHS medical malpractice cases that have been settled or
adjudicated that the PSC Claims Office maintained; we focused on the period June 1997
through September 2004. These listings provide historical information, by HHS agency,
for the following data elements: case number, claimant, dollar amount of settlement or
judgment, provider name, standard of care met/not met, date PSC requested verification of
information to be reported to the NPDB, and date reported to the NPDB. To obtain a
better understanding of the processes HHS agencies use for reporting to the NPDB, we
held discussions with knowledgeable staff from HRSA, IHS, NIH, PSC, and OGC. We
also talked with a representative of the Federation of State Medical Licensing Boards
(FSMB). When necessary, we used e-mail to obtain additional or clarifying information
from individuals.

We conducted this study in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.

FINDINGS

Numerous HHS Cases Are Not Being Reported to the NPDB and State Licensure
Boards

Since the NPDB became operational in September 1990, HHS agencies have reported 257
medical malpractice cases to the NPDB, according to HRSA’s Practitioner Data Bank
Branch, Bureau of Health Professions. However, as a result of our review of the PSC
listing of medical malpractice cases, the Office of Inspector General (OIG) has determined
that as many as 474 additional cases should have been reported to the NPDB but were not.
These unreported cases cover the period June 1997 through September 2004. Our review
of the PSC listing revealed the following:




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                4
     •     290 IHS cases have not been reported,
     •     179 HRSA cases have not been reported, and
     •     5 NIH cases have not been reported.

As noted earlier, PHS policy requires that all medical malpractice settlements/judgments
be reported, except when HHS peer review determines that there was a system
breakdown. Of the 474 unreported cases, HHS’s own peer review determined that the
standard of care was not met in 226 IHS cases, 100 HRSA cases , and 1 NIH case.
Furthermore, in accordance with PHS policy, even those agency cases involving
determinations that the standard of care was met should have been reported. While we did
not review individual cases to identify any claims that fell into the category of system
breakdown and, therefore, would not have to be reported, PSC has advised us that none of
the cases included in our computations for this report involved a peer review
determination of system breakdown. Furthermore, we specifically excluded from our
computations 28 HRSA cases and 10 IHS cases on the PSC listing that did not have a
final Medical Claims Review Panel determination as to whether the standard of care was
met or not met. Six of these cases dated as far back as 1998/1999.

Underreporting of the Department’s own medical malpractice cases lessens the usefulness
of the NPDB and undermines departmental efforts to regulate private- and public-sector
compliance with NPDB requirements.

Furthermore, since HHS policy and procedures require that PSC report to State licensure
boards at the time a report is submitted to the NPDB, failure to report to the NPDB
deprives State licensure boards of potentially useful information for their regulatory
activities. According to the Federation of State Medical Licensing Boards, the majority of
State medical boards require that medical malpractice claims, judgments, and/or
settlements be reported to them. Nineteen of these boards provide malpractice history as
part of their publicly available physician profiling information. In a September 14, 2004,
e-mail, FSMB advised OIG that compliance with reporting requirements “. . . is essential
in assuring that state medical boards receive sufficient information to evaluate the
performance of licensees in fulfilling their responsibilities of public protection.”

Several Factors Influence Reporting to the NPDB

Lost Files

Before PSC files a report with the NPDB, it sends the case file to agencies for final
verification that information is accurate and complete. According to HRSA, eight cases
that PSC sent to HRSA during 1997 and 1998 have been lost. According to NIH, five
cases PSC sent to NIH during the period 1997 through 2002 have been lost. Both
agencies indicated that they would work with PSC to recreate the files.




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                5
Incomplete Records

According to PSC documents, as noted earlier, PSC is missing peer review determinations
for 28 HRSA cases and 10 IHS cases. PSC is also missing practitioner identification
information for 73 HRSA cases, 33 IHS cases, and 2 NIH cases. PSC would need this
information to complete the reporting process to the NPDB.

Medical Claims Review Panel Decision

One cause of the missing practitioner identification information is a 1998 decision by the
Medical Claims Review Panel (then called the Quality Review Panel) to forgo naming a
practitioner when the standard of care was met. Practitioners’ names are a required data
element for NPDB reporting; therefore the decision, which was inconsistent with the
October 1990 PHS policy directive, effectively makes it impossible to report these cases
to the NPDB.

According to HRSA, in addition to the 1998 Medical Claims Review Panel decision, the
decision to forgo naming a provider was sometimes caused by the necessity of obtaining
“. . . feedback from the PSC Claims Office or OGC in certain situations as to the rationale
for the payment in settlement or litigation.”

HRSA also advised OIG that “There are other practical reasons for missing practitioner
identification information . . . .” HRSA indicated that these reasons include the following:

     • 	 Many cases were filed years after the alleged incidents, and, since they took so
         long to reach settlement or go through litigation, in many instances relevant data or
         records were misplaced or lost. HRSA is attempting to retrieve or regenerate this
         information.

     • 	 Many HRSA-funded health centers that have been sued under the FTCA may have
         been unaware of the importance of keeping for years certain files containing
         information necessary for NPDB reporting.

     • 	 In some cases, HHS peer reviewers were advised that payments were made “for
         the convenience of the government” in settling certain claims to avoid the costs of
         litigation. According to HRSA, it is difficult in these situations to assign
         responsibility to a particular practitioner.

Failure to Replace Key Official

Finally, in addition to the above problems, we identified an additional impediment to
reporting. In June 2003, the PSC Claims Officer retired. Prior to his retirement, he was
the official whose name and telephone number had appeared on the report sent to


OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                6
practitioners and therefore he was the individual they would call. When he retired, his
name was removed from HHS medical malpractice reports; in lieu of his name, PSC
inserted “PSC Claims Officer.” Because there is no longer a Claims Officer, and because
HHS components have yet to agree on new reporting procedures, practitioners have no
identifiable HHS contact.

In addition to the unresolved issue of an HHS contact for practitioners, the actual
responsibility for entering reports into the NPDB remains a problem. The PSC Claims
Officer was responsible for actual data entry of reports. Because of his retirement, the fact
that he was not replaced, and organizational changes involving the planned relocation of
the PSC Claims Office to OGC, the responsibility for data entry of reports to the NPDB
has not been resolved.

Last HHS Report

For the period of our review, June 1997 through September 2004, we determined that the
last HHS data entry to the NPDB was made on July 30, 2003, when two HRSA cases
were reported by one of the paralegal staff in the PSC Claims Office. According to PSC,
an additional 23 HRSA cases were ready for reporting in July 2003. However, after PSC
had reported these two cases, it became concerned that because there was no official
Claims Officer to assume legal responsibility for data entry, the 23 HRSA cases, as well
as subsequent reports, should not be entered into the NPDB.

AGENCY COMPLIANCE ACTIONS

Staff-Level Discussions

After we identified the underreporting problem in October 2003, we provided each agency
with the PSC listing of unreported cases. We then met with HRSA and IHS
representatives, as well as PSC and OGC staff, on December 4, 2003, to discuss
compliance. While agency staff generally agreed to start working more closely with PSC
to provide the information required for reporting, it was not clear whether they would
fully comply with the current PHS policy. For example, IHS staff advised OIG in a
December 22, 2003, e-mail that “The IHS will continue to work within the framework of
the current HHS policy and report those cases in which a provider was found to be
negligent . . . .” However, IHS did not indicate that it would report cases where the
standard of care was met, which is a requirement of current PHS policy (except when
there has been a determination of a system breakdown). At the December 4, 2003,
meeting, HRSA and IHS staff expressed their personal opinions that the current PHS
reporting policy should be revised so that the only cases reported by HHS would involve
claims in which the standard of care was not met. It should be noted that the private
sector is required to report all medical malpractice settlements and judgments to the




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                7
NPDB, regardless of the standard of care determination. The standard of care is not a
consideration in the regulatory reporting requirements for the private sector.8

IHS Corrective Action Activities

An October 19, 2004, memorandum from the IHS Director to the Inspector General
updated the IHS position, as follows:

      • 	 Depending on the outcome of due process notification to providers, IHS will report
          up to 103 providers.

      • 	 A detailed administrative process for reviewing and reporting medical malpractice
          claims has been developed; IHS has assigned a senior physician and one
          administrative employee to work on this process.

      • 	 IHS believes that its reporting of providers who are not negligent in their care to
          the NPDB in accordance with current HHS policy could compromise the recruiting
          and retention of high-quality health care providers.

      • 	 There are circumstances in which IHS contract providers are not covered by the
          FTCA. IHS has identified 21 such providers.

      • 	 IHS, NIH, and HRSA are pursuing a revision to the 1990 PHS policy on 

          malpractice reporting to the NPDB. 


RECENT DEVELOPMENTS

Relocation of Claims Office Staff to OGC

On October 4, 2004, PSC Claims Office staff who had been processing medical
malpractice cases were organizationally relocated to OGC; these former Claims Office
staff now follow the same process for handling medical malpractice claims as they did
when they were part of PSC. Also as a result of this reorganization, OGC, instead of PSC,
currently maintains the list of reported and unreported medical malpractice cases.

RECOMMENDATIONS

We recommend that IHS, HRSA, and NIH each take steps to: (1) implement a corrective
action process that would address unreported cases, (2) improve internal controls
involving case file management, and (3) assign staff to assume responsibility for
addressing practitioner questions/complaints and data entry of reports to the NPDB.


8
    42 U.S.C. § 11131



OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                8
With respect to individual agency corrective action activities, we offer the following
details.

IHS

As noted earlier, IHS has taken steps to address reporting to the NPDB. In addition to
planning to report 103 providers, IHS also indicated in its memorandum that it is planning
to review the reporting status of the remaining cases. We would appreciate receiving an
update on IHS’s efforts to address all unreported cases.

HRSA and NIH

As soon as possible, HRSA and NIH should implement a corrective action process for
reporting cases. This should include “reconstructing” lost cases and, in instances for
which OGC’s listing of HRSA and NIH cases is missing information on the standard of
care (met/not met) or practitioner’s name, provide such information for NPDB reporting
purposes. In view of the large number of HRSA cases, HRSA may want to consider
prioritizing cases so that practitioners with significant peer review findings involving
deficient care can be reported at the earliest possible time. Additionally, in accordance
with current policy, reports to the NPDB should also be sent to the appropriate State
licensing board(s).

Both HRSA and NIH should review and improve internal controls, including the possible
development of an agency tracking and case management file system, to ensure that:
(1) cases are reported timely, (2) case files are not lost, and (3) information in files is
maintained in accordance with record retention policies. As part of this activity, HRSA
should inform health centers of record retention requirements so that information required
to be reported to the NPDB is maintained, notwithstanding the length of time between the
onset of a medical malpractice case and reporting to the NPDB and State licensure boards.

IHS, HRSA, and NIH

In view of the retirement of the PSC Claims Officer, the relocation of the PSC Claims
Office to OGC, and the fact that each agency has the most knowledge about its own
practitioners’ peer review findings, OIG believes that the most effective management
practice for implementing HHS medical practice reporting policy would be for each
agency to designate an individual to handle practitioner inquiries. This can be
accomplished by each agency registering independently with the NPDB. The NPDB
online registration form allows for a point of contact for each registered entity.

We also recommend, as an effective management practice, that each agency designate an
individual to do data entry for NPDB reporting. This would provide agencies with full
control of their NPDB-related responsibilities.




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                9
SUMMARY OF THE DEPARTMENT’S COMMENTS

We received a response from the HRSA Administrator on behalf of the Secretary. This
response, which is attached as Appendix A to this report, indicated that the Department is
working to develop a final action plan. In developing this action plan the Department is
reviewing policy options relating to what the future HHS reporting policy should be; it is
anticipated that final action on a reporting policy will be completed in the fall of 2005.

The Department’s response also noted that agencies have implemented revised procedures
to track new malpractice reports and that recommendations will be made to the Secretary
to ensure greater compliance in the future.

Finally, the response provided technical comments from HRSA, NIH, and IHS. We have
revised the report, as appropriate, in response to a number of the technical comments
provided by these agencies. In addition to the changes in the body of the report, we have
responded to agency technical comments as follows:

NIH and IHS Comments Regarding VA and DOD Reporting

Both NIH and IHS suggested in their technical comments that we include VA and DOD
reporting policies and practices. Although the background section of this report noted the
existence of such policies, the purpose of this study was limited to HHS’s compliance
with its own reporting policy. We did not examine VA and DOD practices.

HRSA’s Comments Regarding the OIG Work Plan

HRSA’s technical comments indicated that this study “was not part of the OIG Work Plan
for FY 2004 or FY 2005.”

Page 7 of the FY 2004 OIG Work Plan’s Public Health Agencies Section included the
following work plan proposal: “Medical Malpractice Claims Against Health Centers.”
This study was to evaluate the timeliness of the review process for medical malpractice
claims against health centers funded by HRSA. During research for the study, we
determined that we should stop work because the Department was reorganizing the
processing function for medical malpractice claims, i.e., moving the Claims Office from
PSC to OGC. However, before the project was cancelled, we had asked for data on the
reporting of completed malpractice cases to the NPDB. Based on the results of this
request, we decided to review agency compliance with NPDB malpractice reporting
requirements.

HRSA Comments Regarding OIG Calculation of Unreported Cases

According to HRSA’s technical comment, our finding that as many as 474 cases have not
been reported might be misunderstood because “several of the cases included in this



OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                10
computation were still under review and a determination of system breakdown could not
have been made.”

We discussed this issue extensively with the Claims Office and it reaffirmed what it had
initially advised us: based on peer review findings presented to the Claims Office, none
of the cases included in our computations for this report involved a peer review
determination of system breakdown.

IHS Comments Regarding Missing Information

IHS notes in its technical comments that PSC is also missing payment information from
OGC on some claims, so that reporting to the NPDB is not possible for these claims.

This technical comment apparently applies to IHS’s experiences since they once again
started reporting in April 2005. The focus of our discussion in the report on “Missing
Information” was for the period covered by our review, June 1997 through September
2004. After IHS provided the technical comments to OIG as part of the signed
departmental response, IHS advised OIG that the agency has been able to work with PSC
to deal with the missing payment information.




OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                11
                                                          APPENDIX A 





OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                12
OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                13
OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                14
OEI-12-04-00310 HHS Agencies Compliance With the National Practitioner Data Bank Malpractice Reporting Policy


                                                                                                                15
